GR-50-98-020
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 

Office of Justice Programs

Drug Court Improvement and Enhancement Grant
Administered by the Jackson County, Missouri Prosecutor

Award Number 95-DCMX-0063
 
GR-50-98-020
 
July 21, 1998
 
 
 
 

 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of drug
court grant 95-DCMX-0063 awarded by the U.S. Department of Justice, Office of Justice
Programs, to the Jackson County, Missouri Prosecutor (Prosecutor) for the period September
1, 1995 through September 30, 1997. The grant was awarded in the amount of $650,000 and
was extended through September 30, 1998. Our audit covered the period of September 1, 1995
through December 31, 1997. We tested the accuracy and reliability of the Jackson County
accounting system, reviewed the General Ledger, and evaluated the allowability,
allocability, and reasonableness of costs. Generally, the Prosecutor properly managed the
grant; however, our audit revealed the following:
Bus passes were listed on the grant budget as part of the local match and were not to
be reimbursed as part of the federal share. However, the Prosecutor requested and was
reimbursed $1,981 of the $2,250 spent on bus tokens. Therefore, we question the $1,981
charged to the grant.
Four Progress Reports were submitted late. Also, the Prosecutor failed to report
unliquidated obligations on six of nine Financial Status Reports. 
These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix I.
#####